No. 19-932

 

IN THE

Supreme Court of the Anited States

In re JULIUS MURPHY,
Petitioner.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit and on Original Petition .
for a Writ of Habeas Corpus

CERTIFICATE OF SERVICE

I hereby certify that on the 10th day of February, 2020, three copies of
Respondent's Brief in Opposition were sent via overnight mail and a copy of the Brief
in Opposition was sent electronically to Petitioner’s counsel of record, Edward
Desmond Hogan, Esq., Hogan Lovells US LLP, 555 Thirteenth St. N.W.,
Washington, D.C. 20015, Telephone: (202) 637-5493, e-mail:
desmond.hogan@hoganlovells.com. All parties required to be served have been
served. I am a member of the Bar of this Court.

   

“Counsel of Record
OFFICE OF THE ATTORNEY
GENERAL OF TEXAS
P.O. Box 12548
Austin, Texas 78711
Telephone: (512) 936-1400
Email: jay.clendenin@oag.texas.gou

Counsel for Respondent
